OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/JORDAN’S
PRIVATE SECTOR PROJECT
FOR WOMEN’S HEALTH


AUDIT REPORT NO. 6-278-11-004-P
January 10, 2011




CAIRO, EGYPT

Office of Inspector General


January 10, 2011

MEMORANDUM

TO:                  USAID/Jordan Acting Mission Director, Dana Mansuri

FROM:                Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:             Audit of USAID/Jordan’s Private Sector Project for Women’s Health (Audit
                     Report Number 6-278-11-004-P)

This memorandum transmits our final report on the subject audit. In finalizing the report,
we carefully considered your comments on the draft report and have included your
responses in their entirety in appendix II.

The report includes three recommendations for corrective action. On the basis of
USAID/Jordan’s supporting documentation and action, we consider that both
management decision and final action has been taken on all three recommendations.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1/A Nady El-Etisalat Street
New Maadi
Cairo, Egypt
www.usaid.gov/oig
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings ................................................................................................................. 5 


     USAID/Jordan Did Not Ensure That Contractor
     Data Accurately Reflected Outreach Efforts ............................................................... 5 


     USAID/Jordan Did Not Ensure That Appropriate
     Records Were Retained.............................................................................................. 6 


     USAID/Jordan Did Not Ensure That Voluntary
     Population Planning Language Was Included in
     Subcontracts ............................................................................................................... 7 


Evaluation of Management Comments ......................................................................... 9 


Appendix I – Scope and Methodology ........................................................................ 10 


Appendix II – Management Comments ....................................................................... 12 


Appendix III – Map of Targeted Outreach Areas by Subcontractors ....................... 14 


Appendix IV – Private Sector Project for Women’s Health Performance 

Indicator Targets and Reported Results..................................................................... 15 


Appendix V – Subcontractors Hired by Abt Associates, Inc. .................................. 23 

SUMMARY OF RESULTS

Jordan has one of the fastest-growing populations in the world, with approximately
60 percent of its population below 25 years of age and an average of 3.8 children per
family. Despite the Government of Jordan’s ongoing efforts to reduce fertility through
increased contraceptive use, data from the Jordan 2009 Population and Family Health
interim survey shows an increase in the total fertility rate between 2002 and 2009 (from
3.7 to 3.8 children per family). Moreover, the survey shows only minimal increases in
the contraceptive prevalence rate between 2002 and 2009 (from 56 percent to 59
percent), suggesting that the contraceptive prevalence is beginning to plateau. Rapid
population growth not only increases the cost of critical social services but also strains
Jordan’s natural resource bases, such as water and energy.

To help address these challenges, USAID/Jordan awarded a 5-year, $14 million cost-
plus-fixed-fee task order (GPO-I-802-04-00007-00) under an Indefinite Quantity Contract
to Abt Associates, Inc. (Abt) to implement the Private Sector Project for Women’s Health
(PSP for Women’s Health).1 Originally scheduled to end on January 31, 2010, the
contract was extended through January 31, 2012, with projected costs increasing to $19
million.    USAID/Jordan designed the project to use an integrated approach to
(1) increase demand for modern contraception and related women’s health services,
(2) increase availability of quality private sector women’s health care services,
(3) increase early detection of breast cancer, and (4) address domestic violence against
women. As part of the extension, USAID/Jordan’s Health Sector office transferred the
violence against women outreach component to the mission’s Democracy and
Governance Sector office in March 2010 because the mission considered this
component a human rights issue. The PSP for Women’s Health is intended to raise the
contraceptive prevalence rate by increasing the demand for family planning methods, an
approach that will support and strengthen the Government of Jordan’s goal to decrease
the total fertility rate in Jordan to 2.1 children per family by 2025.

As of September 2010, USAID/Jordan’s $1.3 billion portfolio of programs concentrated
on seven sectors: water, health, youth, education, democracy and governance,
economic growth, and energy. The mission’s health portfolio is about 11 percent of the
total programs, valued at $141 million. The PSP for Women’s Health is valued at $19
million, or 13 percent of the mission’s health portfolio. As of September 30, 2010,
USAID/Jordan had obligated $16.7 million and expended $15.6 million on the PSP for
Women’s Health.

The objective of the audit was to determine whether USAID/Jordan’s PSP for Women’s
Health was achieving its main goals of reducing fertility and improving the quality of
women’s health services. The audit focused on reviewing and testing data from fiscal
years (FYs) 2009 and 2010 for two major components: (1) increase demand for modern
contraception and related women’s health services and (2) increase availability of quality
private sector women’s health care services. The activities under these two components
were designed to address the project’s main goals of reducing fertility and improving the
1
  A cost-plus-fixed-fee contract is a cost-reimbursement contract that states the contractor will be
paid both the costs of the work performed and a negotiated fee that is fixed at the inception of the
contract. The fixed fee does not vary with actual cost, but it may be adjusted because of changes
in the work to be performed under the contract. An indefinite quantity contract provides for an
indefinite quantity, within stated limits, of supplies or services during a fixed period.

                                                                                                  1
quality of women’s services. Although the Government of Jordan’s 2009 Demographic
and Family Health interim survey shows a slight increase in total fertility rate and only
minimal increases in the contraceptive prevalence rate, the project is on track to achieve
its main goals, as follows:

	 Increase demand for modern contraception and related women’s health
   services. Through communication campaigns and outreach counseling visits to
   women’s homes, the project focused on increasing the demand for modern
   contraception and changing women’s attitudes and behaviors toward family planning
   and reproductive health. Abt contracted with two Jordanian nonprofit organizations
   to conduct outreach visits to women in their homes. Over the life of the project, the
   subcontractors, Circassian Charity Association and General Union of Voluntary
   Societies, recruited and trained approximately 145 women from local communities as
   community health workers. The health workers go door-to-door in selected
   neighborhoods, counseling and educating women about several family planning
   issues, such as birth spacing and modern contraceptives, along with the importance
   of early detection of breast cancer. These outreach efforts focused on low-income
   women and women with lower educational levels in communities throughout Jordan,
   including both the Jordanian and Iraqi guest communities. As part of the project, the
   workers also referred counseled women to clinics and provided free vouchers to
   subsidize the cost of health care, if needed. According to mission officials, the
   impact of the current year’s project communication campaigns on changing women’s
   attitudes and behaviors toward family planning and reproductive health is not
   expected to be measured until December 2010. (Appendix III includes a map of
   targeted subcontractor outreach areas.)

   As of September 30, 2010, USAID/Jordan reported that the community health
   workers had conducted 2.5 million counseling visits over the life of the project, 89
   percent of the end of project goal of 2.8 million. In addition, the mission reported that
   117,931 women counseled through the project’s outreach component had started
   using modern contraceptive methods, 90 percent of the project goal of 127,800.
   Records tested on outreach visits and new acceptors of modern contraceptive
   methods from sites in Amman and Balqa, Jordan, demonstrated that internal controls
   were in place to ensure data reliability. However, the Circassian Charity Association
   discarded some outreach cards for counseling visits conducted prior to 2010, and the
   General Union of Voluntary Societies inadvertently deleted outreach records from its
   project database for counseling visits conducted prior to FY 2010. Nevertheless, the
   available data tested for FYs 2009 and 2010 were generally consistent with the data
   reported to USAID/Jordan for the two periods.              (Appendix IV includes the
   performance indicators results for FYs 2009 and 2010.)

   Moreover, during site visits, several community health workers stated that the
   training they received improved their knowledge of the importance of family planning
   and reproductive health and helped them develop the communication skills they
   needed to be leaders in their communities.

	 Increase availability of quality private sector women’s health care services.
   Abt and several local subcontractors offered medical professionals, primarily general
   practitioners, in-class training on a variety of family planning and reproductive health
   topics. These topics included basic and advanced contraceptive methods, family
   planning, abnormal bleeding during pregnancy, and antenatal and postnatal care. In
   addition, general practitioners received hands-on clinical training on how to insert

                                                                                          2
    intrauterine devices and perform Pap smears and breast exams. The PSP for
    Women’s Health also developed a quality assurance and certification program to
    encourage general practitioners to provide high-quality women’s health care
    services. As part of the quality assurance and certification program, PSP for
    Women’s Health consultants assessed the medical knowledge of the general
    practitioners on handling patients with specific medical and personal conditions, such
    as a smoking and diabetes during pregnancy. Moreover, the project assessed the
    readiness of a provider’s facility to serve patients with sterilized equipment and
    appropriate medical supplies.

    As of September 30, 2010, USAID/Jordan reported that through the PSP for
    Women’s Health, 4,706 medical professionals were trained on family planning and
    reproductive health, 89 percent of the project goal of 5,298.2 Audit tests on a sample
    of the project’s FYs 2009 and 2010 training records on family planning and
    reproductive health found the records to be consistent with contractor reports to
    USAID/Jordan. Moreover, a training session on diabetes during pregnancy observed
    in October 2010 exceeded its attendance target by 56 percent. The chairman of the
    General Practitioner Society commented that the practitioners have been pleased
    with the training and would like USAID/Jordan to offer more training sessions.
    (Appendix IV includes the performance indicators results for FYs 2009 and 2010.)

    Although the Government of Jordan does not currently have a mandate requiring
    general practitioners to obtain continuing medical education credits, USAID/Jordan
    and the Jordan Medical Council are working to institutionalize a continuing medical
    education system to sustain the project’s efforts to increase the availability of quality
    private sector women’s health care services. The secretary-general of the Jordan
    Medical Council stated that the council has developed policies and created a division
    to continue the PSP for Women’s Health continuing medical education efforts.
    According to the chairman of the General Practitioner Society and the previous PSP
    for Women’s Health chief of party, Jordan’s Parliament will need to pass a law
    mandating general practitioners to obtain continuing medical education to formalize
    continuing medical education in Jordan for general practitioners.

As illustrated above, USAID/Jordan has made significant achievements with its PSP for
Women’s Health. However, the contractor’s data did not accurately reflect outreach
efforts (page 5), subcontractors did not appropriately maintain outreach records (page
6), and the contractor did not include the required voluntary population clause in some of
its subcontractors’ contracts (page 7). The report recommends that USAID/Jordan:

	 Require its contractor to provide additional guidance to subcontractors on the
   purpose of the outreach protocols and the need for accurate reporting of outreach
   data that exceeds targets (page 6).

	 Provide written guidance to its contractor and subcontractors regarding required
   record retention periods and periodically check source documents against database
   information (page 7).




2
  Although a general practitioner may attend several in-class training, clinical, and quality
assurance sessions, each session was counted as a separate training session.

                                                                                           3
	 Require Abt Associates, Inc., to provide USAID/Jordan with documentation
   demonstrating the inclusion of the required voluntary population planning language
   in its subcontracts for review (page 8).

Our evaluation of management comments is included on page 9. USAID/Jordan agreed
with the three audit recommendations. In preparing the final report, the Regional
Inspector General/Cairo carefully considered management comments and supporting
documents provided. On the basis of USAID/Jordan’s supporting documentation, final
action has been taken on the three recommendations.

The scope and methodology are described in appendix I, and USAID/Jordan's
comments are included in their entirety in appendix II.




                                                                                   4
AUDIT FINDINGS

USAID/Jordan Did Not Ensure That
Contractor Data Accurately Reflected
Outreach Efforts
USAID’s Automated Directives System (ADS) Chapter 203, Assessing and Learning,
section 203.3.5.2, states that missions should be aware of the strengths and
weaknesses of their data and the extent to which the data’s integrity can be trusted to
influence management decisions. Additionally, under ADS 203.3.5.1, performance data
should meet data quality standards for validity, integrity, precision, reliability, and
timeliness. In particular, performance data should be sufficiently precise to present a fair
picture of performance and enable decisionmaking at the appropriate level.

The audit identified a few cases (5 percent of the cases reviewed) in which the two
subcontractors did not record all outreach visits conducted by community health workers
during FY 2010 in the outreach database. During FY 2010, Abt Associates, Inc. (Abt)
developed an outreach visit protocol for estimating followup visits. For example,
according to the protocol, approximately 90 percent of women would need to receive a
second visit and approximately 32 percent of women would need to receive a third visit.3
The protocol anticipated a percentage of women who could be visited as a target without
creating a ceiling on the number of women to be visited. However, officials from both
subcontractors reported that staff did not record outreach visits in the database if the
organization had reached or almost reached the visit percentages specified in the
outreach protocol. Nonetheless, the community health workers continued to record
those visits on the required outreach cards. This information showed that the community
health workers had exceeded the protocols, although the subcontractors did not enter
the information into the database.

Abt and the two subcontractors responsible for outreach activities developed internal
controls designed to ensure the accuracy of outreach data gathered under the Private
Sector Project for Women’s Health (PSP for Women’s Health). Specifically, the
outreach staff reviewed outreach cards completed by community health workers to
ensure that all vital information was recorded. Separate staff members entered the data
into the outreach database, from which the subcontractors routinely selected random
samples to review against the source documentation (outreach cards) for accuracy. In
addition, outreach supervisors periodically contacted women documented as receiving
counseling services to confirm the visits. As a system control, the database designed
and implemented in FY 2010 notifies the data entry staff when anomalies occur.
Moreover, USAID/Jordan performed a data quality assessment of the outreach data
system in August 2010 and did not identify any significant weakness regarding the data
accuracy. Mission staff focused the review on the contractor and subcontractor
management controls designed to ensure accuracy and tested outreach cards and
system databases, but did not identify this issue.


3
  The protocol percentages were developed by reviewing past outreach data and were based on
the anticipated ability of community health workers to reach women on followup visits and on
specific criteria that identified women who needed further medical visits.

                                                                                          5
The subcontractors did not fully understand the outreach visit protocol implemented by
Abt in the beginning of FY 2010 and as a result failed to record all outreach visits. Abt
officials stated that the intent of the protocols was to establish guidelines based on
historical performance. Similarly, Abt and USAID/Jordan staff agreed that both initial
and followup outreach visits conducted by the subcontractors’ community health workers
should be recorded to ensure that project results are not underreported.

Despite management controls to ensure the accuracy of subcontractors’ outreach data,
the information on community health worker visits reported to USAID/Jordan was
underreported because not all visits were entered into the project database. This
undermines both the precision and validity of project’s outreach data. Without reliable
data, USAID/Jordan managers lack a critical tool on which to base performance-based
decisions and for determining if project targets are appropriate. To address this issue,
the audit makes the following recommendation:

    Recommendation No. 1: We recommend that USAID/Jordan require its
    contractor to provide additional written guidance to subcontractors on the
    purpose of the outreach protocols and the need for accurate reporting of
    outreach data that exceed targets.

USAID/Jordan Did Not Ensure That
Appropriate Records Were Retained
According to the contract clause set forth in Federal Acquisition Regulation (FAR)
52.215-2, Audit and Records – Negotiation, records should generally be maintained for
examination, audit, or reproduction until 3 years after final payment under a contract.
Furthermore, Abt’s subcontracts with its outreach providers stated that all records or
other information, documents, and materials developed by the subcontractors will be
provided to Abt for transmittal to USAID/Jordan at the completion of the subcontract.

Although USAID/Jordan included the FAR 52.215-2 clause in its contract with Abt and
the contractor included the clause in contracts with its outreach subcontractors, neither
subcontractor adequately maintained outreach cards and computer records.4 Circassian
Charity Association, the subcontractor conducting the largest number of outreach visits
(approximately 80 percent of first visits in FY 2009), destroyed the outreach cards that
recorded visits for most women prior to FY 2010. The only outreach cards maintained
from FY 2009 and earlier were for women who also received visits during FY 2010.

Subcontractor staff reported that the outreach cards were destroyed because the
organization did not have sufficient office space to store the large volume of cards and
all information on the cards were entered into the project database.5 Furthermore, the
subcontractor staff stated that guidance was not received from Abt as to whether they
were required to store all outreach cards or for what period of time storage was required.
According to Abt officials, the subcontractor did not notify them of its intent to destroy the
records prior to the actual destruction. Furthermore, prior to this audit, both Abt and
USAID staff had not been aware that the records were destroyed. The other

4
  Although not all FY 2009 outreach data were maintained, audit testing on a sample of the
available FY 2009 data was performed.
5
  An outreach card is documented for each woman during her first outreach visit. In FY 2009, the
subcontractor conducted first visits with more than 180,000 women, resulting in a corresponding
number of cards.

                                                                                              6
subcontractor, the General Union of Voluntary Societies, reported that portions of the
electronic backup of its FY 2009 database was inadvertently erased, limiting its ability to
produce electronic records of the outreach visits. In FY 2010, Abt implemented a new
Web-based database that allowed the contractor to upload all information in the
database on its network, rather than relying solely on the subcontractors to maintain
database information.

Although information from the outreach cards had been entered into the project
database, destruction of the original data and database records limits the abilities of both
the contractor and USAID/Jordan to review the supporting documentation reported for
project performance and results. Despite the data system established by the contractor
and updated by the subcontractor, the outreach cards still represent the original data
collection source and are needed to verify the accuracy of the information included in the
project’s outreach database. Similarly, it is important to ensure that past year’s recorded
data are retained to allow for review and verification. To address this issue, the audit
makes the following recommendation:

   Recommendation No. 2: We recommend that USAID/Jordan provide written
   guidance to its contractor and subcontractors regarding required record retention
   periods and periodically verify source documents to database information.

USAID/Jordan Did Not Ensure That
Voluntary Population Planning
Language Was Included in
Subcontracts
USAID Acquisition Regulation (AIDAR) 752.7101, Voluntary Population Planning
Activities, requires insertion of contract clause stating that none of the funds made
available under a contract shall be used to pay for the performance of involuntary
sterilization as a method of family planning or to coerce or provide any financial incentive
to any individual to practice sterilization. It also prohibits abortion-related activities and
identifies additional requirements for projects engaging in family planning activities.

In September 2009, USAID/Jordan modified the PSP for Women’s Health task order
(GPO-I-802-04-00007-00) with Abt to include the AIDAR 752.7101 language required in
June 2008. As part of this modification, Abt was required to include the specific
language related to voluntary population planning in its subcontracts. Although required
to do so, Abt Associates did not modify 3 of 15, or 20 percent, of its active contracts with
subcontractors to include the required language. At the time, the three subcontractors
were providing technical assistance and training to build medical provider capacity,
technical assistance, and support related to continuing medical education, and were
conducting clinical training courses on women’s health issues for medical providers.
The periods of performance for these activities ranged from March 2005 to September
2011. In one instance, a subcontractor’s performance ended in January 2010.
(Appendix V includes a listing of subcontractors hired by Abt Associates, Inc. under the
PSP for Women’s Health.)

USAID/Jordan officials stated that, although the mission’s contracting and technical staff
review and approve the subcontractors’ scopes of work, staff do not routinely check
each subcontract for required language. A mission contracting official stated that the
mission relied on the prime contractor to review its subcontracts to ensure that USAID

                                                                                            7
requirements were included. Abt staff confirmed that the omission of the voluntary
population planning requirements was an oversight. Based on the audit’s identification
of this issue, Abt officials agreed to take immediate action to add the required language
in the identified subcontracts and to take steps to ensure that the language is included in
any future subcontracts.

Because of this omission, subcontractors may not be fully aware of statutory and policy
restrictions relating to family planning. In addition, this omission of specific requirements
for voluntary population planning makes it difficult for USAID/Jordan to enforce the
Agency’s family planning requirements should a violation occur. To address this issue,
the audit makes the following recommendation:

   Recommendation No. 3: We recommend that USAID/Jordan require Abt
   Associates, Inc., to provide USAID/Jordan with documentation demonstrating the
   inclusion of the required voluntary population planning language in its
   subcontracts for review.




                                                                                           8
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Jordan agreed with the three recommendations included in the draft report. The
Office of Inspector General, having reviewed the mission’s response to the draft report,
has determined that management decisions have been reached and final actions taken
on all three recommendations.

Regarding Recommendation no. 1, USAID/Jordan issued a memo to its contractor, Abt
Associates, Inc., requiring Abt to provide additional guidance to its subcontractors on the
purpose of the outreach protocols and the need for accurate reporting of all outreach
data. In response, Abt modified the relevant subcontracts to require reporting of all
outreach visits, even those conducted after targets are reached. In addition, Abt will
incorporate this guidance into a standard operating procedures manual for community
outreach activities to be developed during the upcoming fiscal year. Consequently,
Regional Inspector General/Cairo considers that a management decision has been
reached and final action taken on Recommendation 1.

Regarding Recommendation no. 2, USAID/Jordan issued a memo to Abt requiring the
contractor and its subcontractors to retain records appropriately and periodically check
source documents against database information. In response, Abt modified the relevant
subcontracts to require retention of records in compliance with Federal Acquisition
Regulation. USAID/Jordan will check source documents against database information in
6 months to ensure compliance. Consequently, Regional Inspector General/Cairo
considers that a management decision has been reached and final action taken on
Recommendation 2.

Regarding Recommendation no. 3, USAID/Jordan issued a memo to Abt requiring the
contractor to provide the mission with documentation of its inclusion of the required
voluntary population planning language in its subcontracts. Subsequent to this memo,
Abt issued modifications incorporating the required language in those subcontracts
identified by this audit as not including the voluntary population planning language.
Consequently, Regional Inspector General/Cairo considers that a management decision
has been reached and final action taken on Recommendation 3.




                                                                                         9
                                                                             Appendix I



SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Cairo conducted this performance audit in accordance
with generally accepted Government auditing standards.6 Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on an audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The purpose of this audit was to determine
whether the project was achieving its main goals of reducing fertility and improving the
quality of women’s health services.

In planning the audit, we assessed internal controls in place to monitor the project‘s
activities. Specifically, we evaluated the mission’s project documentation, including
USAID/Jordan’s 2009 and 2010 Federal Managers’ Financial Integrity Act of 1982
certification, USAID/Jordan’s 2009 and 2010 operational plans, USAID/Jordan’s 2008
and 2009 full performance plans and reports, Jordan’s Private Sector Project for
Women’s Health 2010 data quality assessment, and oversight performed by the
contracting officer’s technical representative.

The audit focused on reviewing and testing project activities from October 1, 2008,
through September 30, 2010, for two major components: (1) increase demand for
modern contraception and related women’s health services and (2) increase availability
of quality private sector women’s health care services. The activities under these two
components were designed to address the project’s main goals of reducing fertility and
improving the quality of women’s services. USAID/Jordan does not track or allocate
project funding by components; therefore, the amount audited under the project cannot
be determined. However, as of September 30, 2010, the mission had obligated $16.7
million and expended $15.6 million for the project.

We conducted the audit fieldwork at USAID/Jordan and at Abt Associates, Inc. (Abt)
Jordan headquarters from October 11 through 28, 2010. We also conducted audit
fieldwork at offices of the outreach subcontractors Circassian Charity Association in
Amman, Jordan, and General Union of Voluntary Societies in Balqa, Jordan. Moreover,
we tested internal controls related to whether the mission had (1) approved the
contractor’s annual work plans, (2) approved key personnel, consultants, and
subcontractors, (3) reviewed progress reports, and (4) approved payments to the
contractor.    Furthermore, we verified supporting documentation provided for
performance indicators, conducted site visits, and interviewed officials at Abt and its
subcontractors.

Methodology
To answer the audit objectives, we interviewed officials and staff from USAID/Jordan,
Abt, two outreach subcontractors (Circassian Charity Association and General Union of

6
    Government Auditing Standards, July 2007 Revision (GAO-07-731G)


                                                                                     10
                                                                                Appendix I


Voluntary Societies), and training subcontractor Jordan Medical Council to gain an
understanding of the project’s history, challenges, activities, and sustainability. In
addition, we reviewed relevant USAID policies and procedures, the contract and
modifications, performance plans and reports, operational plans, site visit reports, project
reports, contracting officer’s technical representative files, and the project activities
supporting documentation, such as outreach visit cards and training attendance sheets.

As part of the audit, we tested USAID/Jordan’s internal controls in place to manage the
project and verified the reliability of supporting documentation provided for the
performance indicators reported under the two major components. For internal controls
testing, we judgmentally selected the samples based on our understanding of
USAID/Jordan’s management internal control process and the size of the universe.
Moreover, because of the large number of activities reported for the first component and
the extensive geographical dispersion of the outreach activities sites, we judgmentally
selected activities that provided sufficient audit evidence to answer the audit objective.
A judgmental sample of performance indicators records was selected from the
Circassian Charity Association Amman location and General Union of Voluntary
Societies Balqa location. In addition, performance indicators records for the second
component were centrally maintained at Abt headquarters in Amman. Therefore, a
statistical sample basis was used to select these performance indicators records. The
statistical sampling was based on an assumption of a 5 percent error and a variation of
+/– 4 percent and 95 percent confidence. The number of records to select was provided
by the Office of Inspector General statistician in Washington, DC. In addition, we
selected a judgmental sample of payment vouchers and verified the expenditures were
approved and relevant to the project.

Although the samples selected for review cannot be projected to the universe, the
combined audit procedures performed, such as validation of supporting documentation,
interviews conducted with officials and staff at USAID/Jordan, Abt, and its
subcontractors, along with the testing of management controls, provided a reasonable
basis for our audit conclusions.




                                                                                         11
                                                                                   Appendix II



MANAGEMENT COMMENTS 



Date:                  December 20, 2010

To:                    Regional Inspector General/Cairo, Jacqueline Bell

From:                  Acting Mission Director, Dana Mansuri /s/

SUBJECT: Management Decision for Audit of USAID/Jordan’s Private Sector Project
for Women’s Health (Audit Report Number 6-278-11-00X-P).

MEMORANDUM

This memorandum transmits USAID/Jordan’s response to the three recommendations
contained in the draft report submitted by the IG on December 9, 2010.

USAID agrees with all three recommendations. Immediately upon receiving the draft
report the PSP COTR issued a letter to Abt Associates Inc., with the recommendations
and requested immediate action be taken. (Letter dated November 1, 2010 from
USAID/Jordan attached).

USAID agrees with all three recommendations and has taken the following actions to
respond to the recommendations:

Recommendation No. 1: Require its contractor to provide additional guidance to
subcontractors on the purpose of the outreach protocols and the need for accurate
reporting of outreach data that exceeds targets:

Response: Abt Associates Inc. has provided additional guidance to both of their
outreach subcontractors, the Circassian Charity Association (CCA) and the General
Union for Voluntary Societies (GUVS), on the need to report accurately all outreach
data. (i.e., not to halt reporting of data after targets are reached). This guidance is
contained in subcontract modifications for both subcontractors. “The subcontractor will
report accurately all outreach visitation data (i.e., take care not to halt reporting of data
after it reaches targets).” In addition, Abt Associates Inc. will include this full data
reporting guidance in a standard operating procedures manual for community outreach
to be completed in the second quarter of the current fiscal year.

Recommendation No. 2. Provide written guidance to its contractor and subcontractors
regarding required record retention periods and periodically check source documents
against database information.

Response: Abt Associates Inc. has provided guidance to CCA and GUVS to ensure that
all program data records, including those of its subcontractors, are available for USAID


                                                                                            12
                                                                               Appendix II


inspection up to three years after the close of the project, in accordance with the terms
of the PSP contract.

Recommendation No. 3: Require Abt Associates Inc. to provide USAID/Jordan with
documentation demonstrating the inclusion of the required voluntary population planning
language in its subcontracts for review

Response: Abt Associates Inc. has modified all three subcontracts: Banyan Global,
O’Hanlon Health Consulting, and The Specialty Hospital to include the required
voluntary family planning clause. Copies of these signed subcontract modifications
which provide verification of this action are available in the SSO/PFH Office.




                                                                                        13
                                                          Appendix III 



   Map of Targeted Outreach Areas by Subcontractors




Circassian Charity Association   General Union of Voluntary Societies




                                                                    14
                                                                                                     Appendix IV


                        Private Sector Project for Women’s Health
                   Performance Indicator Targets and Reported Results
Table 1: USAID/Jordan Fiscal Year (FY) 2009 Performance Plan and Report Indicators that
includes data from the Private Sector Project for Women’s Health
                                                  FY 2009         Results
                                     FY 2009      Reported       Achieved         FY 2010         FY 2011
            Indicator                 Target       Result        (Yes/No)          Target          Target
 Number of people trained in
 family planning/ reproductive
 health with U.S. Government
 fundsa,b                               1,535           2,169            Yes          1,455              1,103
 Number of counseling visits
 for family planning/
 reproductive health as a
 result of U.S. Government
 assistanceb,c                          --           391,116              NA        280,500           200,000

Notes: 

a
  Indicator data includes multiple USAID/Jordan programs. USAID/Jordan reported 1,652 and 1,248 people trained in

family planning/reproductive health in FY 2009 and FY 2010, respectively. As of September 30, 2010, USAID/Jordan 

reported 4,706 people trained in family planning/reproductive health and the PSP for Women’s Health end of project 

target is 5,298. 

b
  USAID/Jordan provided preliminary FY 2010 performance data for audit testing. As of October 2010, the mission was 

still reviewing data reported by the contractor. 

c
  Indicator includes data only from USAID/Jordan’s PSP for Women’s Health. 


Table 2: FY 2010 Performance Management Plan Indicator Targets and Reported Results
                                                                                                                 Project on
                                                                          Project                                 Track to
                                        FY 2010           Results       Cumulative          End of Project       Meet End
                          FY 2010       Reported         Achieved      Reported as of        Cumulative            Target
       Indicator           Target        Resulta         (Yes/No)b        FY 2010              Target             (Yes/No)
 Number of women
 reached through
 outreach visits by
 community health
 workersc                  145,000           148,024            Yes            1,280,509         1,453,000              Yes
 Number of
 outreach visits on
 family planning and
 reproductive
 healthc                   280,500           288,984            Yes            2,817,790         2,632,000              Yes
 Number of new
 acceptors (women)
 of modern
 contraceptive
 methodsc                   13,050            12,699            Yes             117,931            127,800              Yes
 Percentage of
 women having a
 breast exam during                    Survey to be
 last medical exam           None        completed
 in the past year         reported       Dec. 2010        Unknown                    NA               >35%         Unknown




                                                                                                                 15 

                                                                                            Appendix IV


                                                                                                     Project on
                                                                      Project                         Track to
                                       FY 2010          Results     Cumulative      End of Project   Meet End
                       FY 2010        Reported         Achieved    Reported as of    Cumulative        Target
     Indicator          Target          Resulta        (Yes/No)b      FY 2010          Target         (Yes/No)
                                       Data based
Percentage                               on annual
increase in oral                         pharmacy
contraceptives                       contraceptive
sales in private          None       sale statistics
markets                reported          in Jordan      Unknown              10%              10%      Unknown
Percentage of
women who
comply with referral
for modern family
                  c
planning method           >60%                40%             No           >60%             >60%            Yes
Percentage of
women who
comply with referral
for diagnostic
breast cancer
screening (clinical)      >66%                58%            Yes           >66%             >66%            Yes
Percentage of
target group (poor,
high maternal risk)
women who act
upon family
planning vouchers         >60%                30%             No           >60%             >60%            Yes
Number of poor
women receiving
vouchers for breast
cancer referral and
diagnosis                 1,100              1,371           Yes            6,126            6,270          Yes
Percentage of
target group (poor,
high risk) who
redeem vouchers
for breast cancer
diagnosis                 >60%                55%            Yes           >60%             >60%            Yes
Health
interventions for
quality assurance
certification                    4                4          Yes    None reported                4          Yes
Number of private
doctors who
provide family
planning service
meeting basic
                   c
quality standards            35                  43          Yes             348              350           Yes
Number of private
doctors who
provide family
planning service
meeting advanced
quality standardsc           50                  63          Yes             177              175           Yes



                                                                                                     16 

                                                                                    Appendix IV


                                                                                             Project on
                                                              Project                         Track to
                                   FY 2010      Results     Cumulative      End of Project   Meet End
                        FY 2010    Reported    Achieved    Reported as of    Cumulative        Target
      Indicator          Target     Resulta    (Yes/No)b      FY 2010          Target         (Yes/No)
Number of private
female doctors who
provide a clinical
breast exam
service meeting the
quality standards            35           30         Yes             209              220           Yes
Number of private
doctors who
provide
reproductive tract
infections/sexually
transmitted
infections service
meeting the quality
standards                    35           13          No             123              175           Yes
Number of private
female doctors in
private sector
project network
who provide high-
                 c
quality services             18           18         Yes             103              120           Yes
Proportion of
network who meet
family planning and
clinical breast
exam quality
assurance criteria
for health
interventionsc              85%         85%          Yes             85%              85%           Yes
Number of private
sector female
general
practitioners
trained in
intrauterine device
insertion and
meeting
competency
            c
standards                    34           31         Yes             128              148           Yes
Number of detailing
visits to health care
providers                  1,200       1,208         Yes            4,434            5,730          Yes
Number of
pharmacists trained
through continuing
medical education
courses in breast
cancer and family
          c
planning                    150          200         Yes             923             1,023          Yes




                                                                                             17 

                                                                                      Appendix IV


                                                                                               Project on
                                                                Project                         Track to
                                  FY 2010         Results     Cumulative      End of Project   Meet End
                       FY 2010    Reported       Achieved    Reported as of    Cumulative        Target
      Indicator         Target     Resulta       (Yes/No)b      FY 2010          Target         (Yes/No)
Percentage of
trained providers
who Strongly Agree
or Agree with the
statement:
Combined oral
contraceptives are
safe for most                      Final data
women                      60%   not available    Unknown              60%              60%           Yes
Number of private
hospitals with staff
able to detect and
refer victims of
violence against
         d
women                        8               8         Yes              17               17           Yes
Accredited
women’s health
continuing medical
education courses
developed for
private sector
general
practitionerse               6               6         Yes              20               22           Yes
Jordan Medical
Council establishes
continuing medical
education policy for
general
practitionersf             Yes             No           No             Yes              Yes           Yes
Consensus
statement on
continuing medical
education policy for
physicians and
recommendations
for formal system
approved by
stakeholdersc              Yes            Yes          Yes             Yes              Yes           Yes
Number of new
contraceptive
methods supported
for introduction to
private sector               1               1         Yes               1                 1          Yes




                                                                                               18 

                                                                                        Appendix IV


                                                                                                  Project on
                                                                 Project                           Track to
                                 FY 2010         Results       Cumulative       End of Project    Meet End
                      FY 2010    Reported       Achieved      Reported as of     Cumulative         Target
      Indicator        Target     Resulta       (Yes/No)b        FY 2010           Target          (Yes/No)
Number of cost-
sharing
partnerships
conducted with
private
organizations,
associations, or
companies to
increase private
contraceptive
market                      1               1         Yes                  3                 4           Yes
Establishment of
National Breast
Cancer Screening
Policy and
             g
Guidelines                 NA         Partial       Partial           Partial           Partial           NA
Number of key
institutions
adopting internal
policy for reducing
violence against
women                       5               5         Yes                  5                 5           Yes
Percentage of
women ages 20–59
conducting regular              Results to be
breast self-                      determined
examinations in the                after Dec.
past 30 days              50%    2010 survey     Unknown                40%               50%            Yes
Percentage of                   Results to be
women who know                    determined
how to do breast                   after Dec.
self-exams                50%    2010 survey     Unknown                50%               65%             No
Percentage of
women who
believe that oral               Results to be
contraceptives are                determined
safe method of                     after Dec.
contraception            55%     2010 survey     Unknown                55%               57%            Yes
Percentage of
target population
that believes that
modern methods of
contraception offer             Results to be
more effectiveness                determined
than traditional                   after Dec.
methods                  87%     2010 survey     Unknown                87%               50%            Yes




                                                                                                  19 

                                                                                                           Appendix IV


                                                                                                                    Project on
                                                                             Project                                 Track to
                                          FY 2010           Results        Cumulative          End of Project       Meet End
                           FY 2010        Reported         Achieved       Reported as of        Cumulative            Target
       Indicator            Target         Resulta         (Yes/No)b         FY 2010              Target             (Yes/No)
 Percentage of
 women who
 answer correctly on                    Results to be
 what to do if they                       determined
 miss a                                    after Dec.
 contraceptive pill             50%      2010 survey         Unknown                   50%                  60%                   Yes
 Number of women
 provided
 awareness raising,
 counseling, and
 referrals for
 violence against         Follow-up
         h
 women                         visits               NA              NA                NA              46,000                      NA

Notes: 

a
  FY 2010 preliminary performance data were provided for audit testing. As of October 2010, the mission was still 

reviewing these data. 

b
  Achievement determined based on 80 percent completion of goal, plus or minus 10 percent. 

c
  Reliability of results data tested by auditors.

d
  Data reported for FY 2010 incorrectly report number of staff, not number of hospitals. 

e
  The Jordan Medical Council certifies courses but does not currently have authority to accredited courses, resulting in

partial achievements. 

f
  Although steps have been taken, no formal policy has been officially adopted. 

g
  Guidelines have been developed; however, stakeholder review determined that it was not cost-effective to establish a 

national screening policy. 

h
  Activities related to this indicator were transferred from the PSP project to other USAID/Jordan projects related to 

democracy and governance issues. 



Table 3: FY 2009 Performance Management Plan Indicator Targets and Reported Results
                                                                                           FY 2009              Results
                                                                       FY 2009             Reported            Achieved
                         Indicator                                      Target              Results            (Yes/No)a
 Number of women reached through outreach visits by
 community health workersb                                                  225,000             226,391                     Yes
 Number of new acceptors (women) of modern
 contraceptive methodb                                                       20,000               20,066                    Yes
 Percentage of women who comply with referral for
 modern family planning methodb                                               >50%                  55%                     Yes
 Percentage of women who comply with referral for
 diagnostic breast cancer screening (clinical)                                >60%               >86.6%                     Yes
 Percentage of target group (poor, high risk) who redeem
 vouchers for breast cancer diagnosis                                         >60%                  56%                     No
 Number of poor women receiving vouchers for breast
 cancer referral and diagnosis                                                3,000                1,070                    No




                                                                                                                     20 

                                                                                            Appendix IV


                                                                            FY 2009              Results
                                                             FY 2009        Reported            Achieved
                     Indicator                                Target         Results            (Yes/No)a
Number of private sector female general practitioners
trained in intrauterine device insertion and meeting
competency standardsb                                                  21              20                 Yes
Percentage of women having a breast exam during last
medical exam in the past year                                      18%             23%                    Yes
Health interventions for quality assurance certificationc           NA              NA                     NA
Number of private female doctors who provide a clinical
breast exam service meeting the quality standards             As needed                4                  Yes
Number of private doctors who provide a family planning
service meeting the quality standards (including bridge
follow up)                                                    As needed                7                  Yes
Number of private doctors that provide reproductive tract
infections/sexually transmitted infections service
meeting the quality standards                                          50              10                   No
Number of private doctors who provide selected health
topic service meeting the quality standards                        118                 94                 Yes
Number of poor high maternal risk women receiving
vouchers for family planning                                      3,500          3,719                    Yes
Number of private hospitals with staff able to detect and
refer victims of violence against women                                 9               9                 Yes
Accredited women’s health continuing medical
education courses developed for private sector general
              d
practitioners                                                           4               0                   No
Number of private female doctors in Private Sector
Project network with improved service capacityb                         8               8                 Yes
Proportion of network who meet family planning and
clinical breast exam quality assurance criteria for health
interventions                                                      80%             85%                    Yes
Support private sector introduction of new contraceptive
method                                                                  1               1                 Yes
Establishment of National Breast Cancer Screening
Policy and Guidelinese                                                 NA        Partial                  NA
Institutionalization of continuing medical education
program                                                                NA        Partial                  NA
Jordan Medical Council or other party contributes to
financial sustainability of continuing medical education
courses                                                                NA        Partial                  NA
Key institutions adopt internal policy for reducing
violence against women                                                  5               5                 Yes
Percentage of women who know how to do breast
self-exams                                                             NA     Unknown              Unknown
Percentage of women ages 20–59 conducting regular
breast self-examinations in the last 30 days                       31%             49%                    Yes
Percentage of women who believe that oral
contraceptives are safe method of contraception                   >50%             49%                      No
Percentage of target population who believe that
modern methods of contraception offer more
effectiveness than traditional methods                            >50%           87.1%                    Yes
Percentage of women who answer correctly on what to
do if they miss a contraceptive pill                              >50%           37.0%                      No
Number of women provided awareness raising,
counseling, and referrals for violence against women             25,000         25,000                    Yes


                                                                                                    21
                                                                                                       Appendix IV




Notes: 

a
  Achievement determined based on 80 percent completion of goal, plus or minus 10 percent. 

b
  Reliability of results data tested by auditors.

c
  The end of project goal for four health interventions was completed prior to FY 2009. 

d
  The Jordan Medical Council certifies courses but does not currently have authority to accredited courses, resulting 

in partial achievements. 

e
  Guidelines have been developed; however, stakeholder review determined that it was not cost-effective to establish 

a national screening policy. 





                                                                                                                   22
                                                                                        Appendix V


                        Subcontractors Hired by Abt Associates, Inc.



                                                 Subcontract      Subcontract
 Subcontractor       Subcontract      Period        value            value
      Name             Number      Performance   (U.S. dollar)   (Jordan dinar)    Key Subcontract Activities
Circassian                                                                        Provide outreach visits on
Charity                             2/1/2005–                                     family planning and women’s
Association            16224        9/30/2011     2,521,286           1,785,070   health
General Union of                                                                  Provide outreach visits on
Voluntary                           2/1/2005–                                     family planning and women’s
Societies              15722        9/30/2011      932,320             660,082    health
                                                                                  Support quality assurance and
                                                                                  training activities and work to
Jordan Medical                      2/1/2005–                                     develop a physician continuing
Council                16397        9/30/2011      182,470             129,189    medical education system
Abu Mahjoob
Creative                            2/1/2005–                                     Develop print and promotional
Productions            16738        9/30/2011      500,472             354,334    materials
                                                                                  Provide training on clinical
King Hussein                       10/1/2005–                                     breast exams to physicians
Cancer Center          17354       9/30/2011        19,160               13,565   and nurses
                                                                                  Provide mammogram training
King Hussein                       2/17/2008–                                     workshops for female
Cancer Center          20157       9/30/2011        42,373               38,347   radiology technicians
Specialty                           6/1/2005–                                     Conduct training courses in
Hospital               16215       9/30/2011        54,163               32,887   women’s health for providers
                                                                                  Provide clinical training on
Jordan University                  2/16/2007–                                     Pap smears to female
Hospital               19094       9/30/2011        46,451                  NA    physicians
                                                                                  Provide technical assistance
O’Hanlon Health                     3/1/2005–                                     and support related to
Consulting, LLC        15669        9/30/2011      284,132               30,000   continuing medical education
                                                                                  Provide technical assistance
                                   11/1/2006–                                     and training to build medical
Banyan Global          15668       1/31/2010       260,145                  NA    provider capacity
                                                                                  Conduct policy analysis
National Council                    4/1/2007–                                     related to violence against
for Family Affairs     19414        1/31/2010      222,607             157,606    women
Noor Al Hussein
Foundation -
Institute for                       4/1/2007–                                     Conduct activities related to
Family Health          19449        6/30/2011      275,121             194,786    violence against women
Jordan Pioneers
for T.V.                            5/1/2006–                                     Provide communication and
Production             17449        6/30/2010     1,500,000           1,062,000   media activities
                                   4/1/2007–                                      Support training activities for
Partners Jordan        19460       12/31/2008       60,225               42,640   female providers
                                                                                  Provide support related to
                                   12/16/2007–                                    implementation of continuing
Partners Jordan        20843        3/15/2008       54,890             234,115    medical education efforts



                                                                                                   23 

                                                                                         Appendix V


                                                  Subcontract      Subcontract
 Subcontractor        Subcontract      Period        value            value
    Name                Number      Performance   (U.S. dollar)   (Jordan dinar)    Key Subcontract Activities
                                                                                   Conduct activities related to
                                                                                   violence against women,
The Queen Zein                                                                     including identification of
Al Sharaf Institute                  2/1/2007–                                     trainers and support to
for Development         19130        3/31/2010      330,671               15,020   outreach programs
                                                                                   Provide clinical and practical
                                                                                   training in intrauterine device
                                     2/1/2005–                                     insertion for general
Ministry of Health      16216        9/30/2009       21,215               38,862   practitioners




                                                                                                   24 

U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

             Tel: 202-712-1150 

             Fax: 202-216-3047 

            www.usaid.gov/oig
